AUDIT OF THE AWARD AND ADMINISTRATION
      OF DIRM SERVICE CONTRACTS


          Audit Report No. 99-041
            September 30, 1999




         OFFICE OF AUDITS

  OFFICE OF INSPECTOR GENERAL
                              TABLE OF CONTENTS


BACKGROUND                                                          1

OBJECTIVES, SCOPE, AND METHODOLOGY                                  3

RESULTS OF AUDIT                                                    4

IMPROVING CONTROLS RELATING TO
DIRM SERVICE CONTRACTS                                              5

Improving Contract Statements of Work                               5

       Recommendation                                               7

Policies and Procedures Regarding Contract Modifications            7

       Recommendation                                               8

Monitoring Procurements Approved by the Board of Directors          8

       Recommendation                                               9

Opportunities to Improve the Usefulness of Management Information   9

       Recommendations                                              10

Security Measures for Contractor Employees                          10

       Recommendation                                               11

NEED TO ENHANCE PROCUREMENT
POLICIES AND PROCEDURES                                             11

Identification of Firms Solicited                                   12

       Recommendation                                               13

Need to Expand the Amount of Time Allowed for Bid Preparation       13

       Recommendation                                               14
Improving the Competitive Process               14

       Recommendation                           15

Separation of Responsibilities                  15

       Recommendations                          17

CORPORATION COMMENTS AND OIG EVALUATION         17

APPENDIX I – MEMORANDUM: CORPORATION COMMENTS   19

APPENDIX II – TABLE: MANAGEMENT RESPONSES TO
RECOMMENDATIONS                                 31
Federal Deposit Insurance Corporation                                                               Office of Audits
Washington, D.C. 20434                                                                 Office of Inspector General




DATE:                          September 30, 1999

MEMORANDUM TO:                 Donald C. Demitros, Director
                               Division of Information Resources Management and
                               Chief Information Officer

                               Arleas Upton Kea, Director
                               Division of Administration




FROM:                          Steven A. Switzer
                               Deputy Inspector General

SUBJECT:                       Report Entitled Audit of the Award and Administration of DIRM
                               Service Contracts (Audit Report No. 99-041)

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
completed an audit of the award and administration of DIRM service contracts. The objectives
were to evaluate procurement and oversight management practices relating to DIRM’s service
contracts. Our review focused on DIRM service contracts because of the increasingly significant
investment that FDIC has made in the use of these resources over the past several years. As of
October 19, 1998, the total value of open DIRM service contracts totaled over $352 million.
This report discusses opportunities for improving internal controls and procurement practices regarding
contract solicitation, award, and oversight management. The report also discusses opportunities to
improve Statements of Work (SOW) that are included in contracts and corporate practices relative to
background checks for contract employees. This report contains
eleven recommendations for improvements, all of which are directed jointly or separately to the
Directors of DIRM and the Division of Administration (DOA).


BACKGROUND

One of DIRM’s primary responsibilities is to develop and maintain an Information Technology
(IT) program that is responsive to the Corporation’s business needs and long term strategies. IT
program activities include the development, operation, enhancement and maintenance of FDIC’s
automated information systems. Effective and efficient acquisition of IT resources is critical to the
success of the FDIC's IT program. DIRM has the authority and responsibility for coordinating the
acquisition of IT resources and for the oversight of IT-related contracts. These resources include
Personal Computer (PC)/Local Area Network (LAN) equipment, packaged software and
maintenance, data center management, development of new application systems, maintenance of
existing application systems, and FDIC’s technical infrastructure.
Prior to the merger of the Resolution Trust Corporation (RTC) and the FDIC in 1996, FDIC’s
information resources management function relied, to a large extent, on FDIC employees to satisfy
the Corporation’s IT needs. Conversely, the RTC relied on the use of contractors to address IT
requirements. Since its merger with the RTC, the FDIC has placed increasingly greater reliance on
contractors to satisfy the Corporation’s IT requirements.

Between January 1, 1996 and December 31, 1998, FDIC paid over $283 million to DIRM service
contractors. This figure is exclusive of payments related to the acquisition of IT goods, including
hardware and commercial off-the-shelf software products. Expenditures to DIRM service
contractors have increased significantly over the past three years. Payments to DIRM service
contractors were $74 million in 1996, $90 million in 1997, and over $118 million in 1998.

DOA’s Acquisition and Corporate Services Branch (ACSB) is responsible for soliciting and awarding
DIRM service contracts. In 1997, ACSB began to streamline the procurement process for the
acquisition of professional services to support FDIC’s IT requirements. DOA began using contractors
registered under the General Services Administration’s (GSA) Federal Supply Service IT Multiple
Award Schedule (MAS) program. The GSA’s IT MAS program provides Federal agencies with a
simplified process for obtaining commonly used commercial supplies and services at prices associated
with volume buying.

The GSA’s IT MAS program establishes indefinite delivery contracts with commercial firms to
provide supplies and services at stated prices for given periods of time. All Federal agencies are
allowed to use GSA’s IT MAS program. Ordering offices issue delivery orders directly with the
schedule contractors for the required supplies and services. The GSA’s IT MAS program is
considered streamlined because of the reduced amount of time that is needed by agencies to
acquire the goods and services available through established MAS contracts.

In addition to the reduced time to complete the procurement process, orders placed with MAS
contractors are considered to satisfy the requirement for full and open competition, required
through the Federal Acquisition Regulations (FAR). In fact, GSA regulations do not require
agencies placing orders under GSA’s MAS contracts to seek further competition, synopsize the
requirement, make a separate determination of fair and reasonable pricing, or consider small
business set-asides.

The procedures followed for placing orders against the GSA’s MAS contracts are dependent on
the amount of the award. For example, ordering offices can place orders directly with any MAS
contractor when the value of the award is equal to or below the micro-purchase threshold
($2,500). When the value of the order is greater than the micro-purchase threshold, but does not
exceed the maximum order threshold, GSA requires the order to be placed with the schedule
contractor that provides the best value. The maximum order threshold is generally not greater
than $500,000 and can be less. Ordering agencies can determine best value by reviewing
catalogs/pricelists of at least three schedule contractors.

When the value of an order exceeds the maximum order threshold of a MAS contract, the ordering
agency must determine the best value and request price reductions. The maximum order threshold


                                                 2
is established for each MAS contract and represents the point where it is advantageous for the
ordering office to seek a price reduction because of the quantity of services requested. After price
reductions have been sought, the agency can place the order with the schedule contractor that
provides the best value and results in the lowest overall cost alternative, even if contractors do not
offer price reductions.

ACSB implemented policies that require the FDIC to satisfy requirements beyond what the FAR
requires of other government agencies that use GSA’s MAS contracts. The FDIC requires a
limited form of competition for FDIC MAS contracts that exceed certain dollar thresholds. For
example, FDIC contract awards to MAS contractors that are greater than $100,000 but less than
the MAS maximum order threshold, require the contracting officer to actively seek the best price
by performing price comparisons between at least three MAS contractors offering the required
product or service. Technical evaluations of contractors can also be performed, but are optional
for contracts in this category.

ACSB policy also requires written proposals from at least three contractors for requirements that
exceeded the maximum order threshold. Technical evaluations of proposals are also required.
FDIC’s solicitations and contacts with prospective bidders encouraged the offering of additional
discounts from MAS contract prices. However, because MAS contracts are considered to satisfy
competition requirements, they are not subject to all APM requirements. For example, in addition
to the limited forms of competition described above, MAS contracts are not currently subject to
the same solicitation periods as some other procurement actions, and proposals in response to
MAS solicitations are not currently required to be evaluated by three-person Technical Evaluation
Panels (TEP).


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine whether (1) DIRM service contracts were executed in
accordance with FDIC policies and procedures, (2) internal controls were designed to ensure that
FDIC’s requirements were satisfied in a cost-effective manner, and (3) administrative controls were
designed to ensure that contractor billings were properly supported and within the scope of the
contract.

To accomplish our audit objectives, we interviewed contract specialists, oversight managers (OMs),
technical monitors and others involved in the contract award and administration process to discuss
internal control plans, supervision, and contract monitoring. We reviewed contract files maintained by
both DIRM and DOA to assess the adequacy of file documentation, the accuracy of management
information being summarized and reported, the level of supervisory review by contracting officers, and
the monitoring of contractors’ performance by OMs. We performed detailed reviews of vendor
invoices for accuracy and supporting documentation. We reviewed and evaluated documentation
supporting the technical evaluation of contractor proposals and selection recommendation reports. We
also reviewed relevant regulations, reports, and policy memorandums.

The audit was conducted in accordance with generally accepted government auditing standards. We


                                                  3
conducted our fieldwork at DOA and DIRM headquarters offices between February 1998 and February
1999. We judgmentally selected 19 DIRM service contracts awarded between March 1997 and April
1998 that exceeded $1 million in value. The 19 contracts that we reviewed fell into three broad
categories. Nine contracts, totaling $42.5 million, provided system development, enhancement, and
maintenance support services (systems development life cycle (SDLC) contracts). Five contracts,
totaling $39.5 million, provided operational and administration support services for FDIC’s LAN,
telecommunications, and data center (operational support contracts). The remaining five contracts,
valued at $14.1 million, provided software support and other services, including Year 2000 and
internet/extranet support services (software support contracts).

At the time of our review, 291 DIRM service contracts were open at headquarters. The 19 contracts
selected totaled $96.2 million and represented approximately 31 percent of the $314.2 million in
headquarters DIRM service contracts that were listed as open as of July 14, 1998.

We designed our selection approach to provide us with the opportunity to evaluate more current
procurement practices and, therefore, excluded awards made before March 1997. In early 1997, DOA
implemented a streamlined approach, using the GSA’s MAS contracts to satisfy most FDIC IT services
requirements. Accordingly, 15 of the contracts that we selected for evaluation were with GSA MAS
contractors. Four contracts were competitive procurements that were awarded to contractors that were
not under GSA’s MAS program. Our sample included contracts for a variety of services including
support for the data center, systems development, maintenance of existing systems, telecommunications
and servers, and help desk functions.


RESULTS OF AUDIT

Our audit identified opportunities for FDIC to strengthen controls to help ensure that DIRM
service contract requirements are satisfied in a cost-effective manner. Contract statements of work
should more fully define or provide details on the tasks, requirements, and deliverables expected
of the successful offerors. Additionally, task assignments after award could be used more
effectively to describe the services required, deliverables, costs, and delivery dates. Better
specifying the Corporation’s contracting needs would serve to lessen FDIC’s reliance on
contractors to define contract requirements and deliverables through project work plans that they
produce after the contract is awarded. Other added cost controls would be for DOA to clarify its
existing policy related to contract modifications that increase the value and scope of contracts
after award and develop the ability to monitor expenditure authority through the FDIC’s Purchase
Order System (POS) when the value of contracts varies from limits established in the APM. The
Corporation also needs to better ensure that contracts are properly classified and closed out
timely and background investigation checks are performed for DIRM contractors.

The Corporation executed the 19 contracts in our sample in accordance with the policies and
procedures contained in the Acquisition Policy Manual (APM) and, in the case of large, complex
IT MAS contracts, even went beyond the procurement policies and procedures that other federal
agencies are required to follow. However, to improve competition for acquiring large service
contracts, it would be in the Corporation’s best interest to take existing controls a step further.


                                                 4
We are suggesting ways to increase the numbers of bidders solicited; involve a source selection
official; expand membership on TEPs; establish more reasonable timeframes for submission of
bids; and seek alternative methods of encouraging Minority and Women Owned Business
(MWOB) participation. Taken together, these actions should improve competition and will better
provide the control of segregation of responsibilities between the Office of Contracts and the
program office during key phases of contract award and administration.

With respect to controls over contractor billings, our review of a selected invoice for each of the
19 contracts in our sample showed that invoices were properly supported and services were
within the scope of the contract.


IMPROVING CONTROLS RELATING TO DIRM SERVICE CONTRACTS

FDIC’s contract statements of work and task assignments issued after contract award can be
improved to more fully define the tasks, requirements, costs, delivery dates, and deliverables
expected of successful offerors. Further, task assignments issued after award could be used more
effectively to describe the services required, deliverables, costs, and delivery dates. By better
specifying its contracting needs, the Corporation could reduce its reliance on contractors to define
contract requirements and deliverables through project work plans produced after contract award.
 DOA can improve cost controls by clarifying its policy regarding contract modifications that
increase the value and scope of contracts after award and developing the ability to monitor
expenditure authority when contract amounts vary beyond limits established in the APM. The
Corporation also needs to improve the accuracy of contract classifications, ensure that contracts
are closed out in a timely manner, and ensure that background investigation checks are performed
for DIRM contractors.

Improving Contract Statements of Work

The FDIC did not clearly define its requirements or deliverables for 13 of the 19 contracts that we
reviewed. In addition, 11 of the 19 contracts contained language regarding the use of task assignments
to define requirements and deliverables subsequent to contract award. However, only two of the 11
contracts used task assignments to effectively control contractor activities. Further, the Corporation
relied on its contractors to define contract requirements and deliverables through project work plans
that contractors produced after contract award. The FDIC’s procurement policies and basic internal
control principles are intended to ensure that the Corporation effectively defines its requirements and
deliverables.

The FDIC’s APM, Section 4.E.3, places responsibility for preparing the contract SOW with the
program office. According to the manual, key items to be taken into account and conveyed through the
SOW include: (1) the nature of the services and the minimum standards that must be met,
(2) qualifications necessary to perform the work, (3) the deliverables and the scheduled milestones for
their delivery, and (4) standards by which the contractor’s performance will be measured.

The 13 contracts referenced above did not contain a clear and complete definition of the services


                                                   5
required of the contractor, deliverables and the scheduled milestones for delivery, or standards by which
the contractor’s performance would be measured. Absent those elements, it becomes more difficult for
the FDIC to measure the performance of contractors. The use of task assignments could have resulted
in a compensating control on contracts that did not contain an adequate definition of requirements,
deliverables, and performance expectations. However, OMs’ use of task assignments did not provide
the compensating controls needed for such assurance.

Eleven contracts contained language stating that work would be assigned by the OM using task
assignments after contract award. Eight of the eleven contracts stated that task assignments would
include a description of the services, deliverables and dates, performance period, and a not-to-exceed
cost. While seven of the eleven contracts used task assignments or System Change Requests, only two
of the seven task assignments or System Change Requests clearly described services required,
deliverables, delivery dates, performance period, and cost. For example, one of the more clear and
definitive task assignments stated that the contractor was to “…provide a review and validation of
existing FDIC application and COTS software inventories, completed application software assessments,
and vendor letters used for Year 2000 compliance inquiries.” This task assignment also cited
deliverables such as a Mainframe Application Source Assessment Plan with a due date of November 1,
1997 at a cost of $150,339.20. However, this level of detail was clearly lacking in the other five task
assignments in our sample.

Nine of the 19 contracts we reviewed related to SDLC services. Requirements and tasks for these
contracts were general, somewhat vague, and often similar. The 9 SOWs did not identify the systems
that would be addressed, describe the deliverables, or provide specifics regarding priorities or
timeframes. Rather, the SOWs listed a variety of systems that could be included within the contract’s
scope and a listing of SDLC products that could be included as potential deliverables.

In summary, the requirements and deliverables contained in 13 of the 19 contracts we reviewed did not
provide the level of detail needed for FDIC to monitor contractor performance or to establish adequate
accountability controls over the efficient and effective consumption of IT resources.

We recognize that not all user requirements can be defined in detail in advance, especially those
requirements related to maintenance of existing application systems, ad hoc reporting, and LAN and
telecommunications/client support services. When it is not possible to define detailed requirements and
deliverables prior to solicitation and award, task assignments can be used to more effectively describe
the services required, deliverables and delivery dates, performance period, and cost.

Absent clearly defined requirements and deliverables in SOWs or task assignments, the FDIC tended to
rely on contractors to define its requirements. We believe this occurred, in part, because DOA did not
require DIRM and program offices to prepare more detailed SOWs that included detailed requirements
and deliverables. FDIC could not ensure that DIRM OMs used task assignments effectively because the
Corporation had not implemented controls to ensure their effective use.

Contract OMs received periodic status reports from and met with contractors for which they had
oversight responsibility. However, the status reports were brief statements on activities during the
reporting periods. Some reports also contained periodic and cumulative resource consumption data.


                                                   6
However, the status reports did not contain specific information regarding progress toward completion
of the project. The absence of such progress information, coupled with the lack of clear requirements
and deliverables, reduced the FDIC’s ability to ensure accountability by the contractor and to measure
performance.

The need to improve the SOW sections in DIRM service contracts was reported in a previous OIG
report entitled DIRM Contracting Audit, issued during March 1995. DIRM responded to that report
and agreed to take actions to more clearly define contract SOWs. DIRM also indicated that, in the
future, it would return contract solicitation packages with poorly defined SOWs to the FDIC
organization that requested the services, and that it would develop a course on how to write
comprehensive SOWs. Although DIRM developed a training course that included coverage of SOW
preparation, based on the results of our current review, additional actions appear necessary to further
address these concerns.

Recommendation

We recommend that the Directors, DIRM and DOA:

(1)     Improve the SOW sections in DIRM service contracts and requirements definition in task
        assignments to more clearly and concisely define contract deliverables, including timeframes for
        delivery, resources required for completion, and priorities prior to contract award or task
        assignment issuance.

Policies and Procedures Regarding Contract Modifications

ACSB can improve controls to limit the expansion of contracts after award. ACSB’s APM Chapter
7.H contains guidelines when modifications to contracts are necessary. Those guidelines prescribe the
procedures that should be followed when making both administrative and substantive changes. In
addition, the APM requires a complete and approved justification for noncompetitive procurement if the
contracting officer determines that a request for modification is not within the scope of work.
However, DOA could enhance these procedures to ensure that contract modifications do not
significantly expand the expenditure authority of DIRM contracts after award.

ACSB contracting officers used an informal method to determine whether to approve proposed
contract modifications that expanded the value of a contract. Contracting officers compared the
cumulative cost of the contract modifications to the initial contract amount and used an informal ACSB
policy that limited the cumulative amount of modifications to 25 percent of the initial contract amount.

However, ACSB was not consistent in approving contract modifications. We reviewed all 291 open
DIRM service contracts at headquarters and identified five contracts that contained modifications
exceeding the 25 percent threshold. The five ACSB-approved modifications exceeded the original
value of the contract by 29, 41, 89, 99, and 206 percent.

Contract modifications are written alterations to the contract terms and can include changes in the
delivery point, rate of delivery, contract period, cost, quantity, or other provisions of an existing


                                                    7
contract. They result from planned actions, such as extension option or from unforeseen changes
requiring the contracting officer to issue a change order pursuant to a change of condition.

Modifications that increase the value of contracts should be used judiciously and controls should be in
place to limit contract modifications that significantly increase the value of contracts after award. Such
controls are important to ensure accountability over the expenditure of IT resources. In addition,
significant increases in value or scope may be more effectively addressed through a re-solicitation to
ensure that the FDIC obtains the most favorable pricing and value possible. Without necessary
controls, significant levels of services and related costs can be acquired without competition or
assurance that the best services are acquired at the lowest costs.

Recommendation

We recommend the Director, DOA:

(2)     Amend the APM to include policies and procedures that provide more detailed guidance
        regarding limitations over contract modifications that increase the value of a contract.

Monitoring Procurements Approved by the Board of Directors

ACSB can improve controls to track the status of expenditure authorities for multiple contracts
awarded as a result of cases approved by the Board of Directors (Board). We identified one instance
where ACSB’s need for improved controls contributed to contracting actions that differed from what
the Board had approved.

The lack of accurate information on the status of expenditure authority granted through approved
Board cases contributed to exceeding expenditure authority in March 1998 when ACSB executed
contract options that exceeded the expenditure authority authorized. During our review, we provided
information on this delegation exception and suggested that management implement more effective
controls to ensure that the FDIC complied with expenditure limitations.

DOA needs to develop controls to ensure that the Board is notified when contract award amounts
deviate from estimates that the Board relied upon in approving cases. For example, the Board
approved a $26 million case that estimated the award of ten contracts spanning a period of more than
three years. DIRM provided individual estimates to the Board for each of the ten contracts with
projected expenditure amounts for each year.

The APM, Section 4.I.2.e provides criteria as to when notification is required if the value of a contract
award varies from the original approved expenditure authority. The policy provides for notification to
the appropriate Deputy to the Chairman and the Board (if appropriate). Notification is required if the
award amount exceeds approved expenditure authority by over $250,000 for procurements up to $5
million, and greater than 5 percent for procurements greater than $5 million. The policy also requires
explanation when the award amount was less than the approved amount by greater than $1 million for
procurements up to $10 million, and greater than 10 percent for procurements over $10 million.




                                                    8
The provisions of the policy provide adequate guidance for dealing with contract awards that deviate
from the approved expenditure authority. However, ACSB did not have an effective methodology to
alert officials when the contract award amount deviated from amounts approved by the Board. In
addition, the policy cited in the APM, Section 4.I.2.e did not address the need for similar notification
when modifications caused a contract to exceed the amounts approved by the Board.

DIRM and DOA stated that OMs and contracting personnel maintained informal manual records that
tracked the actual award amounts to the approved Board case. However, a variety of ACSB and
DIRM personnel were responsible for the multiple contracts awarded as a result of a Board case and
may be unaware of restrictions or limitations imposed by the Board.
These control issues occurred, in part, due to FDIC’s practice of aggregating requirements under one
Board case to allow Board members to make expenditure decisions based on estimated costs for an
entire program or function. ACSB and DIRM had packaged these multiple requirements into
consolidated cases that were presented to the Board.

Improved mechanisms to track contract awards, subsequent modifications and expenditures, and their
relationship to Board approvals can improve controls and reduce the opportunity for not adhering to
approved expenditure limitations.

Recommendation

We recommend the Director, DOA:

(3)     Develop the ability to monitor expenditure authority through the POS to ensure that proper
        notifications are made and approvals obtained when the value of contracts vary from the limits
        established in FDIC’s APM.

Opportunities to Improve the Usefulness of Management Information

ACSB needs to be able to rely on POS to accurately track the status of open and closed contracts. Our
review showed, however, that POS identified contracts as open, although the contracts had expired at
least 6 months earlier. In addition, DOA misclassified five DIRM service contracts, totaling $7.1
million, as contracts for goods.

As of November 3, 1997, POS identified 77 of 402 (19.1 percent) DIRM service contracts as open
although the contracts had been expired for at least 6 months. Twenty of the referenced 77 contracts
were listed as having payments pending. While ACSB may have valid reasons for keeping contracts
open when payments are pending, we believe that 6 months provides ample time to resolve most
disputes. A follow-up analysis on October 20, 1998, revealed that DOA had made an effort to close
out contracts on a more timely basis. However, 33 of 338 (9.7 percent) DIRM service contracts
continued to be shown as open despite expiring at least 6 months earlier. Six of the 33 had pending
payments against them.

We recognize the improvement that ACSB made in closing expired contracts in POS. However, we
believe better controls and more timely action is needed to close out contracts that have expired and


                                                    9
that are no longer available for use. FDIC’s payment systems permit the processing of payments against
expired contracts that have not been closed in POS if funds remain. Additionally, management reports
that are generated out of the POS would be more reliable and meaningful if expired contracts were
removed in a more timely manner. DOA management officials indicated that contracting officers did
not always close out contracts at the expiration date to allow for the processing of late billings.
However, the officials stated that contracting officials now review contacting activity reports and close
out contracts following passage of the recorded expiration date.

We also noted that a POS report misclassified five DIRM services contracts, totaling $7.1 million as
contracts for goods. We notified the responsible DOA contracting officers and they indicated that they
would make the necessary corrections to reclassify the contracts as service contracts.

Contracts were not closed out in a more timely manner and contracts were miscoded in POS because
ACSB had not established adequate controls that monitored the status of expired contracts and other
data. A report that identified all expired contracts over 6 months old could improve ACSB’s
maintenance of information on the status of contracts. Improved edits that restrict the use of product
service codes to either goods or services, but not both, could improve data integrity related to contract
type.

Recommendations

We recommend that the Director, DOA:

(4)     Ensure that expired contracts are closed out in POS in a more timely manner.

(5)     Implement manual or automated controls that limit the use of a product service code to either a
        contract for goods or for services.

Security Measures for Contractor Employees

To help enhance security, the FDIC can improve controls to ensure that contractor employees
meet the FDIC’s suitability standards. Many of the FDIC’s DIRM service contractor employees
perform work on sensitive or mission critical FDIC systems and were issued credentials to access
FDIC facilities. However, the FDIC did not consistently subject these individuals to a
background investigation.

The FDIC maintained a database (PEGASYS) that accounted for all contractor employees that
have been issued a FDIC access identification. Another database (OCOS-3) maintained and
recorded the results of all background investigations started or completed for contractor
employees. We compared the PEGASYS and OCOS-3 databases and identified that 1,542 of the
2,390 (65 percent) contractor employees who had been authorized to access FDIC facilities did
not have a recorded background investigation either started or completed.

We also sampled contractor employees for 12 DIRM service contractors and 2 subcontractors
from invoices that the contractors submitted for payment to determine whether FDIC had


                                                   10
completed or started a background investigation for these contractor employees. Fifty-one of the
88 (58 percent) contractor employees had not received a background investigation.

The provisions of 12 C.F.R. 366.2 and 366.4(a) prescribe the eligibility qualifications that
individuals must meet before they can perform work on behalf of the FDIC. Specifically, the
provisions of 12 C.F.R. 366.4(a) prescribe disqualifying conditions that if present would preclude
an individual from doing any work for the Corporation directly or through any contractor or
subcontractor it may employ.

In February 1997, the FDIC implemented a policy, requiring that all contractor employees receive
a background clearance to obtain access to FDIC facilities. Contractor employees are required to
provide fingerprints and to sign the appropriate forms granting the FDIC permission to conduct a
background investigation when photographed for their access badge. Before August 1998, the
FDIC did not have adequate controls in place to ensure that contractors certified that all
employees and subcontractor employees meet FDIC’s suitability standards as defined in the
referenced statutes.

However, in August 1998, DOA amended the FDIC ELIGIBILITY REPRESENTATIONS and
CERTIFICATIONS form that contractors were required to complete before performing work for
the FDIC. These changes made it clear that all prospective contractor employees must meet
FDIC suitability standards.

To ensure effective security, it is critical that the FDIC ensures the suitability of individuals
accessing its facilities. The importance of such assurance is increased when these individuals are
provided access and perform work on FDIC’s most critical automated systems and related data,
on-site or off.1

Recommendation

We recommend that the Director, DOA:

(6)      Ensure that all DIRM service contractor employees have background investigations completed
         in a timely manner.


NEED TO ENHANCE PROCUREMENT POLICIES AND PROCEDURES

The Corporation executed the 19 contracts in our sample in accordance with the policies and
procedures contained in the APM and, in the case of large, complex IT MAS contracts, even went
beyond the procurement policies and procedures that other federal agencies are required to
follow. However, to improve competition for acquiring large service contracts, it would be in the
Corporation’s best interest to take existing controls a step further. We are suggesting ways to

1
 On February 5, 1999, the OIG issued an audit report entitled Audit of Food Services Contract With Aramark Services, Inc.
(Audit Report No. 99-009). This report addressed the need for background investigations for contractor employees who
accessed FDIC facilities.


                                                            11
increase the numbers of bidders solicited; involve a source selection official; expand membership
on TEPs; establish more reasonable timeframes for submission of bids; and seek alternative
methods of encouraging MWOB participation. Taken together, these actions should improve
competition and will better provide the control of segregation of responsibilities between the
Office of Contracts and the program office during key phases of contract award and
administration.

Identification of Firms Solicited

ACSB did not actively participate in the selection and identification of vendors solicited for the
contracts reviewed. Rather, ACSB relied on DIRM to provide suggested lists of vendors to solicit. By
limiting the firms solicited to only those suggested by DIRM, DOA may have contributed to a reduction
in the level of competition. The FDIC solicited four or fewer vendors for eight of the contracts
reviewed. Of the 28 firms solicited for the referenced 8 procurements, only 15 submitted bids. FDIC
received only one proposal for four of the eight procurements.

The APM states that contracting officers shall prepare a solicitation list identifying the firms to be
solicited, identified by MWOB classification, and the rationale for selection. The list shall include firms
provided by the Program Office, Office of Equal Opportunity (OEO), eligible firms from the National
Contractor System (NCS), Commerce Business Daily, and other sources, at the direction of the
contracting officer. These policies are applicable to the preparation of the solicitation list for both
formal contracting and simplified procurements. FDIC’s Contractor Performance Management System
(CPMS) is an additional source that could be used to identify firms that could be solicited. The CPMS
is used to track the performance ratings for all contracts over $50,000.

Although ACSB policy provided for using multiple sources to develop solicitation lists, ACSB typically
relied on the list provided by DIRM in their request for procurement services. Sixteen of the 19
contracts that we reviewed were awarded through the issuance of a solicitation to multiple vendors.
ACSB relied on the vendor list submitted by DIRM for 12 of the 16 procurements without change.

While the principles of competition are achieved when multiple firms are solicited, the process is
enhanced when proposals are submitted by a sufficient number of firms to permit a comparative
evaluation of technical capabilities and cost. Receipt of multiple proposals in response to solicitations
also helps FDIC ensure it is receiving the highest quality services at the lowest possible cost. Increasing
the number of qualified firms solicited increases the opportunity for a greater response to solicitations.




                                                    12
Recommendation

We recommend the Director, DOA:

(7)     Ensure that policy contained in the APM relating to preparation of solicitation lists is followed
        more effectively and that the NCS and the CPMS are used to augment the sources suggested by
        the requesting program office.

Need To Expand the Amount of Time Allowed for Bid Preparation

ACSB can enhance the competitive process for major IT procurements by increasing the time for
prospective offerors to prepare and submit proposals. Because of their complexity, responses to IT
solicitations require thoughtful and innovative preparation. Increasing the time allotted for prospective
offerors to prepare and submit proposals in response to such solicitations can increase the Corporation’s
ability to procure the highest quality service at the lowest possible cost.

Sixteen of the 19 contracts reviewed were awarded through competitive procedures and the issuance of
solicitations. Eleven of the 16 solicitations allowed less than 20 calendar days for bid preparation and
submission, including time for transmission. Three of these 11 solicitations allowed less than 12 days
for bid preparation and submission.

We observed a correlation between the number of bids received and the length of time allowed for bid
submission. For example, for the five solicitations that allowed more than 20 days for bid preparation
and submission, 91 percent (21 of 23) of the firms solicited submitted proposals. Conversely, only 34
percent (11 of 62) of the solicited firms participated in the proposal process for the 11 contracts that
allowed less than 20 days for bid preparation and submission. Further, only 23 percent (3 of 13) of the
solicited firms responded to the three solicitations that provided less than 12 days for bid preparation
and submission.

The compressed time frame allowed by ACSB for bid preparation and submission resulted, in part,
because of DOA’s desire to streamline the procurement process and provide services to users more
quickly.

Federal Acquisition Regulation (FAR) 5.203c requires agencies to allow at least a 30-day response time
for receipt of bids or proposals from the date of issuance of a solicitation, for open competitive
procurements if the contract action is expected to exceed the simplified acquisition threshold
($100,000). In addition, the FDIC’s APM, Chapter 6.C.9, requires the contracting officer to consider
the complexity of proposal preparation and allow adequate time for this purpose when using formal
contracting procedures. The APM goes on to state that normally 20 to 30 days is considered a
reasonable amount of time when formal contracting procedures are followed.
The FDIC is not bound by the FAR, and its formal contracting process is a more limited form of
competition than that referenced in the FAR.

For simplified procurements, the APM also states “Firms shall be given sufficient time to prepare a
response (usually between five (5) and ten (10) working days). More detailed requirements may require


                                                   13
longer proposal preparation times.” ASB had not established minimum time frames for bid submission
on large, complex MAS competitive procurements.

ACSB indicated that it was not required by GSA procedures to solicit competition. However,
ACSB implemented policies that require the FDIC to satisfy requirements that are similar but that
go beyond what the FAR requires of other Government agencies that use the GSA’s MAS
contracts. The FDIC requires a limited form of competition for FDIC contracts that exceed
certain dollar thresholds. For example, FDIC contract awards to MAS contractors that are
greater than $100,000 but less than the MAS maximum order threshold, require the contracting
officer to actively seek the best price by performing price comparisons between at least three
MAS contractors offering the required product or service. Technical evaluations of contractors
can also be performed but they are optional for contracts in this category.

ACSB policy required written proposals from at least three contractors for requirements that exceeded
the maximum order threshold of MAS contracts. Technical evaluations of proposals were also
required. When solicitations were issued, prospective bidders were encouraged to offer additional
discounts from their MAS contract prices.

Because our audit showed that increasing the amount of time that a solicitation remains open increases
the percentage of responses that are received, the Corporation should consider establishing a minimum
timeframe for large complex procurements to encourage the greatest possible participation among the
firms solicited. Limiting the response time for bid preparation to less than 20 days for large and
complex DIRM service contracts can discourage prospective contractors from submitting proposals and
reduces the FDIC’s ability to ensure that it receives the best value for the goods or services it acquires.
While we understand that ACSB placed significant emphasis on delivery of contracts in shorter
timeframes, we believe that increasing the response time for major IT-related solicitations would
provide the FDIC with benefits that outweigh the delays encountered.

Recommendation

We recommend that the Director, DOA:

(8)     Establish a minimum timeframe for bid preparation on large, complex MAS procurements and
        ensure that ACSB monitors the adequacy of responses obtained and adjusts the minimum
        timeframe as necessary.

Improving the Competitive Process

FDIC can better ensure the competitive process by not disclosing solicitation lists. The contracting
officer for three procurements in our sample provided bidders lists when one or more of the solicited
firms requested the information. ACSB management officials stated that they generally approved of the
release of solicitation lists as a way of encouraging MWOB firms to seek out partnering relationships
with firms that had been solicited. One section of the APM permits the offeror to be provided a copy of
the solicitation list upon request.




                                                   14
However, the competitive process works most effectively when prospective bidders are not aware of
the identity of their competition. Release of this information can provide bidders with the identities of
their competitors. This knowledge can lead to an understanding of the capabilities and capacities of
their competitors that could result in reduced competition, particularly for procurements for which the
FDIC conducts a limited competition by soliciting a small number of vendors. Release of this
information can also create a potential for practices that would not be in the government’s best interests,
including collusion or price fixing.

ACSB stated that they were interested in exploring ways to increase the opportunity for MWOB firms
to participate in FDIC procurements. To that end, ACSB works with the Office of Diversity and
Economic Opportunity (ODEO) to ensure that an appropriate number of MWOB firms are included on
solicitation lists. ACSB officials also stated they were interested in exploring other methods for
encouraging MWOB firms to participate in FDIC procurements. One such method was providing
solicitation lists to MWOB firms to facilitate partnering relationships between firms solicited and
MWOB firms.

We acknowledge the benefits of increasing the participation of MWOB firms in FDIC procurements.
However, ACSB should explore, with ODEO, alternative methods for improving the opportunities for
MWOB firms to participate in FDIC procurements, such as including a list of MWOB firms to firms
solicited or referring prospective offerors to ODEO to obtain information on MWOB firms with
capabilities consistent with the nature of the service required.

Recommendation

We recommend the Director, DOA:

(9)     Explore, with ODEO, alternative methods of encouraging MWOB firms to participate in FDIC
        procurements and amend the APM to discontinue the practice of releasing bidder lists for future
        competitive procurements.

Separation of Responsibilities

A basic tenet of internal control is effective separation of responsibilities over the award and
administration of contracts. In the case of the DIRM service contracts we reviewed, the program office
was involved in all phases of the solicitation, award, and administration of service contracts supporting
its operations. DIRM OMs prepared evaluation criteria, determined which vendors were solicited, and
chaired TEPs that were assembled to evaluate the technical qualifications of firms submitting proposals.
 OMs were later responsible for managing the contractor’s performance and approving contract
deliverables and payments.

Sixteen of the 19 contracts we reviewed involved solicitations that were issued to multiple firms.
Fourteen of the these solicitations resulted in responses from at least two firms. Twelve of the 14
contracts had TEPs chaired by either the DIRM OM or the technical monitor for the contract. DIRM’s
OM also performed technical evaluations independently for 4 of the referenced 12 contracts.




                                                   15
DIRM’s level of involvement in the award and administration of service contracts occurred because
DOA officials did not believe that DOA possessed the technical expertise to question DIRM on
technical matters. DOA intentionally allowed the DIRM’s OMs to influence all phases of the
procurement because it believed they were the best-qualified people with the greatest interest in
ensuring that the most qualified contractor was selected. DOA confined the bidders lists to the firms
suggested by DIRM in its request to DOA for acquisition services. ACSB officials advised that they
permitted a departure from the three-member panels, as required by the APM, to one-member TEPs for
procurements from GSA’s MAS schedules. However, it was up to the ACSB contract specialist’s
discretion to require a TEP of more than one.

Basic internal control principles provide that key duties and responsibilities need to be divided or
segregated among different people to reduce the risk of error or fraud. No one individual should
control all key aspects of a transaction or event. Accordingly, incompatible duties in the contracting
process should be separated to better ensure that proposals are evaluated in a fair and consistent
manner. Responsibility for developing evaluation criteria, determining the firms solicited, conducting
the evaluation process, and overseeing and administering contracts should not be vested in the same
person to reduce opportunities for or the appearance of conflicts of interest.

The FDIC’s APM defines the roles and responsibilities for ACSB and program offices during the
procurement process. ACSB has overall responsibility for contract administration, which includes
coordination of the activities of all persons involved in the contracting process. ACSB is also
responsible for selecting the firms solicited, and ensuring adequate competition and fair and consistent
treatment of all firms solicited. In addition, ACSB is responsible for evaluating proposals to ensure the
selection of the firm offering the best value to FDIC. Program offices, such as DIRM, are responsible
for initiating requirements, developing SOWs, preparing FDIC cost estimates, and submitting
requirement packages to ACSB. The program office also can play a role in the selection and evaluation
process to ensure that the contractor selected is capable of meeting the needs of the FDIC.

While it is appropriate for DIRM to provide input in the solicitation, evaluation, and award processes,
more effective controls are needed on large complex procurements to ensure that there is adequate
separation of responsibility. Improved controls will also help to ensure there is not the appearance of or
potential for a conflict of interest.

ACSB could enhance controls relating to separation of responsibilities for large DIRM MAS
procurements by expanding the scope of its own policy governing when to use source selection
procedures. The APM requires use of source selection procedures for any projected contract award of
$100,000 or greater and for commercial goods greater than $5 million when formal competitive
contracting procedures are followed. However, at the time of our review, source selection procedures
were not required for procurements made under simplified procurement procedures, regardless of the
dollar value, including MAS procurements.

Source selection procedures contained in the APM require the preparation of a Source Selection Plan
(SSP). The SSP provides guidelines and a control mechanism for conducting the proposal evaluation
and selection process. The APM states that the SSP contents can include the identity of a Source
Selection Official (SSO), when the decision is made to establish such a position for an individual


                                                   16
procurement. The SSO’s responsibility is to approve the SSP, ensure that the proposal evaluation
process is conducted fairly, and to confirm the award recommendation made by the contracting officer.

Recommendations

We recommend the Directors, DIRM and DOA:

(10)   Take steps to expand the use of source selection procedures to include large IT MAS service
       contracts. Specifically, measures should be put in place that provide for the use of a source
       selection official on large DIRM service contracts.

We recommend the Director, DOA:

(11)   Ensure that TEPs are comprised of at least three members for large procurements of IT services
       using MAS contracts when the estimated award value exceeds the maximum order threshold of
       the MAS contract.


CORPORATION COMMENTS AND OIG EVALUATION

On September 13,1999 the Directors, DIRM and DOA, provided a written response to the draft report.
 The response is presented in Appendix I of this report. Management agreed with all of the report's
recommendations. A summary of management’s responses to the recommendations contained in this
report follows.

Management agreed with recommendation 1 and stated that a new SOW, emphasizing the use of task
assignment (TA) documents, is now required for all future DIRM contracts, TAs will be reviewed by
ACSB, and TAs will become part of the contract file. Management also stated that DIRM and DOA
will provide additional training to OMs. Finally, DOA stated it would modify the APM to incorporate
the use of TAs in FDIC contracts.

Management agreed with recommendations 2 and 3 and indicated that DOA would incorporate
additional guidance in the APM to clarify the policy involving modifications that increase contract
values. We continue to believe that DOA needs formal policies to ensure that modifications that
increase the value of a contract are appropriately identified and approved. In addition, management
indicated that ACSB’s Quality Assurance Unit would track future expenditures and ensure that
necessary notifications were made when the expenditure authority granted through Board cases was
exceeded.

The Director, DOA, agreed with recommendations 4 and 5 and stated that DOA’s Quality Assurance
Unit had been assigned the responsibility to review weekly POS reports to ensure ACSB compliance
with current policy. The Director also stated that the DOA Quality Assurance Unit would also be
responsible for monitoring the accuracy of ACSB's assignment of product service codes.




                                                 17
Regarding recommendation 6, management stated it had implemented a new process for conducting
background investigations, effective July 1999. Management also indicated that changes in the
background investigation process would be incorporated in an upcoming APM revision.

DOA’s initial response to recommendation 7 indicated that DOA did not believe it necessary to increase
the number of firms solicited to more than three for large contracts using GSA’s multiple award
schedule contracts. DOA’s September 13, 1999 response also did not address the audit concern that
DOA relied excessively on DIRM to identify firms solicited for most of the large contracts we reviewed.
 However, in subsequent discussions, DOA officials indicated that in contracts issued over the past 12
months, DOA has generally solicited 6 to 8 firms for contracts that exceed the maximum order
threshold for GSA schedule contracts. DOA also indicated that it now meets with DIRM prior to
DIRM’s submission of requests for procurement services. DOA management stated that during the
pre-solicitation meetings with the program office, DOA participates in preparation of the bidders list.

Regarding recommendation 8, DOA management agreed with our recommendation and stated that it
would collaborate with DIRM and establish a minimum timeframe for vendors to respond to FDIC
solicitations.

DOA also agreed with recommendation 9 and stated that in February 1999 ACSB discontinued its
practice of permitting the distribution of bidders lists. Additionally, DOA responded that dialog with
ODEO has been ongoing to find new methods of stimulating MWOB participation in the procurement
process.

The Directors, DOA and DIRM, stated that they agreed with recommendation 10 and that they would
expand the use of the source selection process to include large IT multiple award schedule service
contracts. Regarding recommendation 11, the Director DOA stated she would also instruct COs and
ACSB staff to convene 3-member TEPs for all MAS contracts that exceed the maximum order
limitation.

The Corporation’s response to the draft report provides the elements necessary for management
decisions on each of the report’s recommendations. Accordingly, no further response to this report is
required.




                                                  18
                                                                                             APPENDIX I
                                     CORPORATION COMMENTS



          Federal Deposit Insurance Corporation
           550 17th Street, NW, Washington, DC 20429




DATE:                               September 13, 1999

MEMORANDUM TO:                      Steven A. Switzer
                                    Deputy Inspector General



FROM:                               Donald C. Demitros
                                    Director, Division of Information Resources Management




                                    Arleas Upton Kea
                                    Director, Division of Administration

SUBJECT:                            MANAGEMENT DECISION
                                    Draft Report Entitled Audit of the Award and Administration of DIRM
                                    Service Contracts, Audit No. 97-910 dated July 30, 1999


The Division of Information Resources Management (DIRM) and the Division of Administration’s (DOA)
Acquisition and Corporate Services Branch (ACSB) have completed an evaluation of the Office of
Inspector General (OIG) Draft Report No. 97-910 entitled “Audit of the Award and Administration of
DIRM Service Contracts.”

The primary objectives of this audit were to determine whether (1) DIRM service contracts were executed
in accordance with FDIC policies and procedures, (2) internal controls were designed to ensure that FDIC
satisfied its requirements cost effectively, and (3) administrative controls were designed to ensure that
contractor billings were properly supported and within the scope of the contract. The audit covered the
period from March 1997 to April 1998. The OIG reported 11 recommendations dealing with contract
policy and procedural issues. There were no questioned costs.

Our management decision is presented in two parts: the Executive Summary and the Management
Decision detail. Our evaluation addresses the 9 audit findings and 11 recommendations presented in the
report. Based on our preliminary review, corrective actions are required for all recommendations. Exhibit
A summarizes the expected completion dates and the documentation that will confirm completion of the
corrective actions.

If you have any questions concerning the management responses, please contact Mary Rann, Chief,
Financial Review Group, at (202) 942-3287.




                                                       19
EXECUTIVE SUMMARY

The following table presents an overview of the management decision. A more comprehensive summary of
the decision that details specific areas of agreement or disagreement with each finding and describes
necessary corrective actions, including milestone dates, is attached as Exhibit A.



   Finding                                                   Questioned    Proposed     Amount      Amount
     No.                  Finding Description                  Cost       Management   Disallowed   Allowed
                                                                           Decision

      1         Contract statements of work and task
                assignments are not specific enough in          -0-         Agree         N/A        N/A
                defining contractor work requirements
                and deliverables.
      2         Some contract modifications exceeded                       Partially
                the 25 percent contract value permitted         -0-         Agree         N/A        N/A
                by ACSB policy guidelines.
      3         ACSB lacks a formal mechanism for
                tracking contract awards to ensure
                proper notifications and approvals are          -0-         Agree         N/A        N/A
                obtained when a contract total exceeds
                the original approved expenditure
                authority.
      4         Closed contracts were not recorded
                timely in the Purchase Order System             -0-         Agree         N/A        N/A
                (POS). There were also several
                contracts incorrectly classified in POS.
      5         Contractor personnel were working in
                FDIC facilities without the required            -0-         Agree         N/A        N/A
                background investigations.
      6         FDIC did not use multiple sources to                       Partially
                prepare solicitation lists for DIRM             -0-         Agree         N/A        N/A
                contracts as required by ACSB policy.
      7         Many contract solicitations did not             -0-         Agree         N/A        N/A
                allow a reasonable amount of time for
                companies to respond.
      8         ACSB policy permitting disclosure of
                companies on the solicitation list can
                reduce competition and increase                 -0-         Agree         N/A        N/A
                chances that companies might engage
                in practices that are not in the
                government’s best interests.
      9         Many DIRM service contracts had too
                much participation and influence by a           -0-         Agree         N/A        N/A
                single program person for technical
                evaluation as well as contract
                solicitation, award, and administration.


   TOTAL                                                        -0-                       N/A        N/A

The nine audit findings summarized in the table above contain no questioned costs.

MANAGEMENT DECISION

Reviewing the overall results of your audit, we are pleased that you found the Corporation executed all 19
contracts you reviewed in accordance with FDIC policies and procedures, and in the case of the large,
complex information technology (IT) multiple award schedule (MAS) contracts, that the Corporation
exceeded procurement requirements of other federal agencies. With respect to controls over contractor

                                                           20
billings, we acknowledge your finding for the same 19 contracts that invoices were properly supported and
services were within the scope of the contract.

Following is a summary of the findings in your report and a consolidated DIRM/DOA management
decision describing corrective action that addresses each of your recommendations.


FINDING #1: Statements of Work and Task Assignments Not Specific

RECOMMENDATION: The OIG recommends that the Directors, DIRM and DOA improve the
statement of work (SOW) sections in DIRM service contracts and requirements definition in task
assignments to more clearly and concisely define contract deliverables, including timeframes for delivery,
resources required for completion, and priorities prior to contract award or task assignment issuance.

BACKGROUND: The OIG found that FDIC did not adequately define its requirements or deliverables
for 13 of the 19 contracts it reviewed. In 11 of these contracts, there was a requirement to use task
assignments to further define its needs, but FDIC actually used them in only two of the contracts. The
SOWs generally did not identify the systems to be addressed, describe the deliverables, or provide specifics
regarding priorities or timeframes. The OIG concluded that FDIC is unable to measure contractor
performance because of the poorly defined requirements and status reports that did not contain specific
accomplishments.

MANAGEMENT RESPONSE: We agree with the finding and recommendation.

DIRM has initiated several important actions that address the OIG concerns regarding the SOW
and task assignment contracts (TA), and in concert with DOA, DIRM has taken additional actions
that will improve overall contract oversight. DIRM issued a revised SOW shell document on
March 29, 1999. This new document incorporates all the steps involved in the development of an
IT system; and it includes the specific required tasks the contractor must perform during each
phase. This new SOW, approved by ACSB, will be used for all future DIRM contract
requirements and will emphasize the use of task assignment documents to better define such
things as deliverables, completion schedules, and estimated labor charges. For future DIRM
contracts, the signed TAs will be forwarded to ACSB where they will become part of the official
contract file

DIRM contractors are required to submit monthly status reports. These reports have been
modified to conform with the improved SOW requirements. Use of the revised status reports,
combined with the task assignment documents, will enable the oversight manager (OM) to better
monitor contractor progress and measure performance for assigned tasks.

In addition to the improvements in the SOW and TAs, ACSB and DIRM have combined to take
additional actions to strengthen oversight and administration of DIRM contractors. Beginning in
June 1999, the Divisions began training OMs in these changes and improvements. The Divisions
conducted a seminar, attended by all OMs, that covered lessons learned, problems to avoid, and
other DIRM-related contract administration issues. To communicate the recent contract changes,
the Divisions developed a training course required for all OMs, that is scheduled to begin in
September 1999. This course will provide additional instruction on SOW preparation and the use
of task assignment contracts.

Lastly, ACSB will modify the Acquisition Policy Manual (APM) to establish corporation-level
                                                    21
procedures for using TAs as a method for acquiring goods and/or services under FDIC contracts.

FINDING #2: Contract Modifications Exceeded Amounts Permitted by ACSB Policy

RECOMMENDATION: The OIG recommends that the Director, DOA amend the APM to include
policies and procedures that provide more detailed guidance regarding limitations over contract
modifications that increase the value of a contract.

BACKGROUND: The OIG found that of the 291 open DIRM contracts, five (5) contained modifications
that increased the cumulative cost of the contract after award in a range from 29 to 206 percent. These
exceeded the existing informal ACSB policy limiting such increases to 25 percent. Based on these results,
the OIG concluded that regarding DOA compliance with the informal policy, ACSB was not consistent in
approving contract modifications. The OIG goes further to suggest that controls were not adequate to
prevent these large increases in budget authorizations; and inadequate controls results in non-competitive
purchases that may not be the best value for the Corporation.

MANAGEMENT RESPONSE: We agree with the recommendation.

Management agrees with the criteria asserted by the OIG stating that modifications that increase
the value of contracts should be used judiciously and controls should be in place to limit
significant increases in value of contracts after they are awarded. From the 291 DIRM contracts
reviewed in the audit, we examined the five contract modifications that led OIG to the conclusion
that DOA was inconsistent and somewhat less than judicious in its approval of price
modifications, and that controls were not adequate in this approval process.

Two contracts (95-01218 and 95-02749) were awarded prior to the Acquisition Policy Manual
(APM) and the Expenditure Delegations. Under these two contracts, the modifications in
question were for pre-established option exercises. The earlier acquisition rules permitted budget
authorization approvals using modifications at the time a contract option was exercised. In one
example cited by OIG, the approved authorization of contract 95-02749 was $215,000, the first
year budget for the contract, as pointed out by the OIG. However, this was not the amount
estimated or budgeted by FDIC to complete the work under this contract. In fact, the price
schedule in the original contract contained budgeted costs for two one-year option periods, that
included an additional $204,487 in fixed price fees and fully burdened hourly rates for four
different contractor employee categories for all three years of the contract. The OIG is correct
that $444,487 in budget authorizations for the second and third years of the contract was not
officially approved until the contract options and modifications were exercised. However, those
costs were anticipated in the original contract; and the modifications did not change the scope of
work or the original cost estimates in the magnitude suggested in the OIG report. It is important
to note that DOA complied fully with the existing acquisition policies for both these contracts.

The remaining three contracts involved increases that exceeded 25 percent of the original
approved cost. We found evidence documented in the contract files that (a) requests were
submitted along with justification from the program office for the proposed contract
modifications, (b) the requests were reviewed by ACSB, and (c) management approved the
requested contract modifications.

Review of the five contracts cited in the report led DOA management to conclude that
modifications that result in substantial increases in contract values are not entered into lightly.

                                                   22
That is evidenced by OIG results showing only one percent (3 of 291) of the contracts involved
price increases that exceeded 25 percent of the original contract value. In these three rare cases,
the requests for increased funding were scrutinized by ACSB before approval; and when ACSB
decided that a pricing modification would be in the best interests of the Corporation, each case
was approved by an official with the appropriate delegated authority. In fact, the modification for
contract 97-00544 was approved by the ACSB Associate Director, as well as the Corporation’s
Chief Financial Officer and Chief Operating Officer--evidence that internal controls to prevent
unwarranted procurements were in place and functioning as intended.

Therefore, management disagrees with the OIG conclusions, but finds merit in its recommendation. DOA
will provide additional guidance in the APM to clarify the policy related to modifications that increase
contract values.


FINDING #3: ACSB Lacks Formal Mechanism for Tracking Contract Awards

RECOMMENDATION: The OIG recommends that the Director, DOA develop the ability to monitor
expenditure authority through the Purchase Order System (POS) to ensure that proper notifications are
made and approvals obtained when the value of contracts vary from the limits established in FDIC’s APM.

BACKGROUND: The OIG identified a March 1998 contract approved by the Board of Directors, in
which ACSB exercised contract options that exceeded the original budget without notifying the Board or
obtaining its approval. On the basis of this case, the OIG concluded that ACSB did not have adequate
controls in place to track the status of Board case expenditures. These control weaknesses cannot ensure
that differences between actual awards and Board-approved budgets are identified, and that proper
notifications are made to the Board when any increases in contract authorizations occur.

MANAGEMENT RESPONSE: We agree with the finding and recommendation. POS currently allows
Contracting Officers to enter and track approved expenditure authorization against total dollars awarded
under contracts. The APM has current policy in place which requires notification on high dollar awards
when the contract amount is under or over (by established percentage) the approved expenditure amount. In
support of this policy, ACSB established an internal Quality Assurance Unit that assists the contracting
officers with monitoring expenditure authority requirements required by Board cases to ensure that
expenditure authority is not exceeded without providing the required notification. ACSB will establish
internal procedures to ensure that all Cases (when required) will be provided to the Quality Assurance Unit
to track expenditures and ensure that proper and timely notifications are made.


FINDING #4: Contracts Were Not Timely or Correctly Recorded in POS

RECOMMENDATIONS: The OIG recommends that the Director, DOA (4a) ensure that expired
contracts are closed out in POS in a more timely manner, and (4b) implement manual or automated
controls that limit the use of a product service code to either a contract for goods or for services.

BACKGROUND: The OIG found 33 of 338 DIRM service contracts service contracts being reported as
open even though they had expired at least six months earlier. They also noted that five DIRM service
contracts, totaling $7.1 million were incorrectly classified in POS as contracts for goods.

MANAGEMENT RESPONSE: We agree with the finding and recommendations.



                                                    23
As a general rule, DOA keeps contracts open 90 days beyond the expiration date to permit FDIC
and the contractor sufficient time to make payment on final invoices, complete delivery on
outstanding orders, and resolve any other audit or contract issues. In order to ensure that
contracts are properly and timely closed out, ACSB created a Quality Assurance Unit assigned
the responsibility of reviewing weekly POS reports to ensure DOA adherence to the 90-day
timeframe.

DOA uses product service codes (PSC) to fulfill reporting requirements in and outside the
Corporation; and we recognize that this information should be as accurate as possible. Therefore,
based on the OIG finding, ACSB Unit Chiefs (Acquisition Section) will implement a manual
review of all PSCs prior to the execution of a contract. In addition, the Quality Assurance Unit
will be responsible for routinely checking the accuracy of this process.


FINDING #5: Contractor Personnel Working Without Required Background Investigations

RECOMMENDATION: The OIG recommends that the Director, DOA ensure that all DIRM service
contractor employees have background investigations completed in a timely manner.

BACKGROUND: The OIG reported that 1,542 of the 2,390 (65 percent) contractor employees who had
access to FDIC facilities did not have completed background investigations (BI) as required by FDIC
policy and governing regulations. In addition, 51 of 88 (58 percent) of contractor employees for 12 DIRM
service contractors and 2 subcontractors did not have the required background investigation.

MANAGEMENT RESPONSE: We agree with the finding and recommendation. ACSB has
implemented a new BI process that will satisfy the OIG’s concerns in this area. This involves tightening
and clarifying the BI policies and procedures (including standard contracting documents) and in
headquarters, using the Policy and Training Unit to act as intermediary and the Quality Assurance Group
to ensure that BIs are requested by the Contracting Officer and are provided to the Security Services Unit
to conduct the review. Tracking and suspense systems are in place and this new process was operational in
July, 1999. The new BI process will be incorporated in an APM revision. In the future, DOA will ensure
that BIs are performed for all contractors that have either direct or remote access to FDIC facilities or
information systems. Also, the OIG initiated an audit survey of these tracking and suspense systems in
September 1999, that will evaluate the effectiveness of the new BI policies.

FINDING #6: Multiple Sources Not Used to Prepare Solicitation Lists

RECOMMENDATION: The OIG recommends that the Director, DOA ensure that policy contained in
the APM relating to preparation of solicitation lists is followed more effectively and that the National
Contractor System (NCS) and the Contractor Performance Management System (CPMS) are used to
augment the sources suggested by the requesting program office.

BACKGROUND: The OIG found that in 8 of the 19 contracts reviewed, FDIC solicited four or fewer
vendors. Furthermore, from a total of 28 solicitations in the 8 procurements, only 15 firms submitted bids;
and in 4 of the 8 contracts, FDIC received only one proposal. Also, OIG noted that in 12 of 16 multiple
solicitation procurements, ACSB relied exclusively on the list provided by DIRM.

The OIG suggests that there are too few vendors being solicited. Other sources such as the Office of Equal
Opportunity, the NCS, and the Commerce Business Daily, and FDIC's CPMS are not being used to
identify potential contractors, as provided for in the APM.


                                                    24
MANAGEMENT RESPONSE: We partially agree with the finding and recommendation.

The OIG correctly points out that the APM suggests that the contracting officer may use a variety of
sources to identify potential vendors for inclusion on a solicitation list. We agree that the CO should give
serious consideration to the use of other sources when FDIC uses a formal contracting process. However,
that is not the case when the procurement is through the Federal Supply Schedule (FSS).

The General Services Administration (GSA) developed the FSS to simplify the purchasing process for
commonly used goods and services in the federal government. Vendors on the schedule are already
considered technically qualified to perform, and the GSA pricing is universally accepted to be competitively
fair and reasonable. Therefore, under the FSS, soliciting a large number of firms will not provide an
incremental benefit related to contractor qualifications or price. Seventeen of the 20 current DIRM service
contracts over $1 million, were FSS procurements. ACSB adopted, with Policy Memorandum 97-017,
dated November 13, 1997, the GSA policy covering large awards under an FSS contract such as those
sampled in the OIG audit. That policy requires DOA to solicit no fewer than three FSS contractors
offering the required product or service; and DOA has complied fully with that policy.

To the extent the OIG recommendation refers to non-GSA purchases, Management agrees and will
continue to emphasize to contracting officers (CO) the importance of using all available sources when
developing a solicitation list to maximize competition for FDIC contracts. DIRM and DOA are applying
marketing research analysis to help locate additional firms that have the skills to meet some of the unique
requirements of the Corporation. Management is scheduling presentations by companies interested in IT
contracting, and those meeting FDIC requirements are added to the NCS. This expansion of prospective
contractors includes coordination with FDIC’s Office of Diversity and Economic Opportunity (ODEO) to
ensure there is a large pool of qualified minority and woman-owned business (MWOB) firms available that
meet FDIC requirements.


FINDING #7: Contract Solicitations Do Not Allow Sufficient Time To Respond

RECOMMENDATION: The OIG recommends that the Director, DOA establish a minimum timeframe
for bid preparation on large, complex MAS procurements and ensure that ACSB monitors the adequacy of
responses obtained and adjusts the minimum timeframe as necessary.

BACKGROUND: The OIG reported that 11 of the 16 contracts competitively bid allowed less than 20
days for vendors to respond to a solicitation, a practice that does not, in their opinion, foster competition.

MANAGEMENT RESPONSE: We agree with the finding and recommendation.

DOA has conducted most of its large IT service procurements against the GSA schedule.
Companies listed on the schedule have already demonstrated their technical abilities to provide IT
services. Because of this, FDIC requires less information from bidders than would be necessary
under formal competitive procedures; and the capable firms solicited generally require less time to
evaluate the FDIC requirements and submit proposals. We note that 10 of the 11 contracts
allowing fewer than 20 days for response identified by the OIG were GSA procurements.

Based on prior experience, DOA considers 14 days sufficient response time in most GSA
procurements, and has set that as an informal benchmark. The responsible CO reviews all large
IT procurements and may adjust the timeframe depending on the complexity of the Corporation’s
requirements.


                                                      25
When DOA allowed at least 14 days to respond, more than 48 percent of the firms in the OIG
sample, solicited under the GSA schedule, submitted proposals--a response rate that exceeds the
government-wide average. However, that rate drops sharply to only 23 percent when DOA
allowed less than 12 days for firms to respond. Based on these results, management
acknowledges OIG’s concern regarding the need for a minimum time to respond to our contract
solicitations.

DOA will confer with DIRM management and will establish a minimum timeframe that will better
enable vendors to respond to FDIC contract solicitations while recognizing the CO responsibility
to weigh the complexity of contract requirements against the critical IT needs of the Corporation.

FINDING #8: Disclosing Solicitation Lists Can Reduce Competition and Increase Risk to the
Corporation

RECOMMENDATION: The OIG recommends that the Director, DOA explore with ODEO, alternative
methods of encouraging MWOB firms to participate in FDIC procurements and amend the APM to
discontinue the practice of releasing bidder lists for future competitive procurements.

BACKGROUND: The OIG found that in three instances, FDIC provided bidder lists to other solicited
firms when requested. OIG believes this practice restricts competition and creates an environment that is
not in the best interests of the Corporation.

MANAGEMENT RESPONSE: We agree with the finding and recommendation. The APM prohibits
distribution of bidder lists. Notwithstanding this prohibition, ACSB waived the policy for about nine
months beginning June 1998. The purpose of the waiver was to allow dissemination of bidder information
to minority and woman-owned businesses (MWOB), to permit them an opportunity to offer their services
to other prospective offerors as potential subcontractors. The waiver was removed in February 1999,
reinstating the existing policy.

DOA remains committed to working with ODEO to stimulate MWOB and Small Disadvantage Business
(SDB) participation in the FDIC procurement process. ACSB will provide the solicitation distribution list
to ODEO and will modify the RFP document to instruct potential offerors and subcontractors to contact
ODEO who will act as a clearinghouse for subcontracting opportunities and subcontractors for forming
teams with prospective offerors on FDIC procurements. ACSB will monitor this process to ensure it is
sufficiently generating subcontracting opportunities for SDBs and MWOBs.


FINDING #9: Too Much DIRM Participation and Influence Over Contract Solicitation, Award,
and Administration

RECOMMENDATIONS: The OIG recommends that the Directors, DIRM and DOA (9a) take steps to
expand the use of source selection procedures to include large IT MAS service contracts. Specifically,
measures should be put in place that provide for the use of a source selection official on large DIRM
service contracts. The OIG also recommends that the Director, DOA (9b) ensure that TEPs are comprised
of at least three members for large procurements of IT services using MAS contracts when the estimated
award value exceeds the maximum order threshold of the MAS contract.

BACKGROUND: The OIG reported that the program office was involved in the solicitation, award, and
administration phases of the contracting process, objecting that this violates the basic tenet of internal
controls--separation of responsibilities. The OIG faults the program office OMs for being too active in the
evaluation of prospective contractors. Specifically, for 12 of 14 contracts involving multiple proposals, the

                                                     26
DIRM oversight manager or technical monitor chaired the Technical Evaluation Panel (TEP). The OM
also prepared an evaluation in four of these contracts. In addition, ACSB permitted the DIRM OM or
Technical Monitor to serve as a one-member TEP in four of the contracts reviewed.

MANAGEMENT RESPONSE: We agree with the finding and recommendations.

DOA and DIRM have used source selection officials for large, highly visible contracts to ensure the best
contractor was chosen to support the Corporation’s requirements. Management agrees with expanding the
use of the source selection process to include larger IT multiple award schedule (MAS) service contracts.

Currently, the APM provides for this process only at the request of the client program office. The APM
will be modified to better clarify the role and process for using a Source Selection Official (SSO). In
addition, ACSB will explore the advantages and/or necessity of requiring SSOs for all large dollar value
contracts in the future.

DOA also agrees with the OIG recommendation regarding the technical evaluation panel (TEP).
Management will instruct all COs and ACSB staff to convene 3-member TEPs for all MAS contracts that
exceed the Maximum Order Threshold.

cc:     Deborah Reilly
        Janet Roberson
        Scott Miller
        Mary Rann
        Andrew Nickle
        Rack Campbell
        Richard Johnson




                                                    27
                                                                EXHIBIT A

                                         DIV. OF INFORMATION RESOURCES MANAGEMENT / DIV. OF ADMINISTRATION

                                                             SUMMARY OF MANAGEMENT DECISION



NO.        FINDING DESCRIPTION                QUESTIONED      AMOUNT              DESCRIPTION OF CORRECTIVE ACTION                               EXPECTED     DOCUMENT
                                                 COST       DISALLOWED                                                                          COMPLETION    VERIFYING
                                                                                                                                                   DATE      COMPLETION
 1    Contract statements of work and task                                                                                                         Final
      assignments are not specific enough             -0-           -0-   Management agreed with the finding and recommendation.                Management    New SOW
      defining contractor work                                                                                                                   Decision          /
      requirements and deliverables.                                                                                                                 +         Training
                                                                          A new SOW, emphasizing the use of task assignment (TA)                 120 days        Plan
                                                                          documents, is currently required for all future DIRM contracts; and                      /
                                                                                                                                                                APM
                                                                          the TAs will be reviewed by ACSB and become part of the                              Revision
                                                                          contract file. DIRM and DOA will provide additional training to
                                                                          OMs. Also, ACSB will modify the APM to incorporating the use
                                                                          of TAs in FDIC contracts.

 2    Some contract modifications                     -0-           -0-   Management did not agree with the conclusion, but agreed with
      exceeded the 25 percent contract                                                                                                             Final
      value permitted by ACSB policy                                      the recommendation.
      guidelines.                                                                                                                               Management      APM
                                                                                                                                                 Decision      Revision
                                                                          ASB will incorporate additional guidance in the APM to clarify the         +
                                                                          policy involving modifications that increase contract values.          120 days


 3    ACSB lacks a formal mechanism for                                                                                                            Final
      tracking contract awards to ensure                                  Management agreed with the finding and recommendation.
      proper notifications and approvals              -0-           -0-                                                                         Management     ACSB
      are obtained when a contract total                                                                                                         Decision    Memorandum
      exceeds the original approved                                       ACSB’s Quality Assurance Unit will track future                            +
      expenditure authority,                                              expenditures and ensure that necessary notifications are               60 days
                                                                          made.




                                                                             28
                                                                 EXHIBIT A (Con’t)


                                                           SUMMARY OF MANAGEMENT DECISION



                                             QUESTIONED      AMOUNT              DESCRIPTION OF CORRECTIVE ACTION                            EXPECTED      DOCUMENT
NO.        FINDING DESCRIPTION                  COST       DISALLOWED                                                                       COMPLETION     VERIFYING
                                                                                                                                               DATE       COMPLETION

 4    Closed contracts were not recorded                                 Management agreed with the finding and recommendations.
      timely in the Purchase Order System
      (POS). There were also several                 -0-           -0-   4a. DOA Quality Assurance Unit has been assigned the               Final
      contracts incorrectly classified in                                responsibility to review weekly POS reports to ensure ACSB         Management      ACSB
      POS.                                                               compliance with current policy.                                    Decision      Memorandum
                                                                         4b. Quality Assurance will also be responsible for monitoring             +
                                                                         the accuracy of ACSB's assignment of PSCs.                             90 days

 5    Contractor personnel were working                                  Management agreed with the finding and recommendation.
      in FDIC facilities without the                 -0-           -0-                                                                          Final
      required background investigations.                                ACSB implemented a new process for conducting                       Management       APM
                                                                         background investigations effective July 1999. Changes in            Decision       Revision
                                                                         this process will be incorporated in an upcoming APM                     +
                                                                         revision.                                                            120 days

 6    FDIC did not use multiple sources to                               Management agreed with the finding and recommendation to
      prepare solicitation lists for DIRM            -0-           -0-   the extent that it applies to non-FSS procurements.                    Final          ACSB
      contracts as required by ACSB                                                                                                          Management    Memorandum
      policy.                                                            Management will continue to emphasize to COs the                     Decision            /
                                                                         importance of using all available sources when developing a              +          Marketing
                                                                         solicitation list. In addition, newly applied marketing research     90 days     research results
                                                                         will be used to expand the number of firms on NCS.




                                                                            29
                                                                   EXHIBIT A (Con’t)


                                                             SUMMARY OF MANAGEMENT DECISION



                                               QUESTIONED      AMOUNT              DESCRIPTION OF CORRECTIVE ACTION                         EXPECTED       DOCUMENT
NO.        FINDING DESCRIPTION                    COST       DISALLOWED                                                                    COMPLETION      VERIFYING
                                                                                                                                              DATE        COMPLETION

 7    Many contract solicitations did not                                  Management agreed with the finding and recommendation.          Final
      allow a reasonable amount of time                -0-           -0-                                                                   Management        APM
      for companies to respond.                                            DOA will collaborate with DIRM and establish a minimum                          Revision
                                                                           timeframe for vendors to respond to FDIC solicitations.         Decision           or
                                                                                                                                                  +         ACSB
                                                                                                                                               120 days   Memorandum


 8    ACSB policy permitting disclosure of                                 Management agreed with the finding and recommendation.          Final            Revised
      companies on the solicitation list can                                                                                               Management        RFP
      reduce competition and                           -0-           -0-   In February 1999, ACSB discontinued its temporary waiver                            /
      increase chances that companies                                      of APM allowing the distribution of bidder lists. Dialog with   Decision         ACSB
      might engage in practices that are not                               ODEO has been ongoing to find new methods of stimulating               +       Memorandum
      in the government’s best interests.                                  MWOB participation in the procurement process.                      120 days


 9    Many DIRM service contracts had                                      Management agreed with the finding and recommendation.
      too much participation and influence
      by a single program person for                   -0-           -0-   9a. Management will expand the use of the source selection          Final       9a. APM
      technical evaluation as well as                                      process to include large IT multiple award schedule service      Management      Revision
      contract solicitation, award, and                                    contracts.                                                        Decision           /
      administration.                                                                                                                            +         9b. ACSB
                                                                           9b. Management will also instruct COs and ACSB staff tp           120 days     Memorandum
                                                                           convene 3-member TEPs for all MAS contracts that exceed
                                                                           the maximum order limitation.


                Totals                                 -0-           -0-




                                                                              30
                                                                                                                                                         APPENDIX II
                                                     MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual reports to the
Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must
describe for each recommendation

     • the specific corrective actions already taken, if applicable;

     • corrective actions to be taken together with the expected completion dates for their implementation; and

     • documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the
case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of
corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for
management decisions is based on management's written response to our report and subsequent discussions with management representatives.


                                                                                                    Expected      Documentation That                 Management
   Rec.                                                                                            Completion     Will Confirm Final   Monetary       Decision:
  Number                   Corrective Action: Taken or Planned / Status                               Date              Action         Benefits       Yes or No
               Management agreed with the finding and recommendation.                               1/13/00         New SOW;             N/A             Yes
      1                                                                                                              Training
               A new SOW, emphasizing the use of task assignment (TA) documents, is                                   Plan;
               currently required for all future DIRM contracts; and the TAs will be reviewed by                   APM Revision
               ACSB and become part of the contract file. DIRM and DOA will provide
               additional training to OMs. Also, ACSB will modify the APM to incorporating
               the use of TAs in FDIC contracts.

               Management did not agree with the conclusion, but agreed with the                    1/13/00            APM               N/A             Yes
      2        recommendation.                                                                                        Revision

               ASB will incorporate additional guidance in the APM to clarify the policy
               involving modifications that increase contract values.

                                                                                          31
                                                                                               Expected     Documentation That              Management
 Rec.                                                                                         Completion    Will Confirm Final   Monetary    Decision:
Number               Corrective Action: Taken or Planned / Status                                Date             Action         Benefits    Yes or No
         Management agreed with the finding and recommendation.                                11/15/99    ACSB Memorandum         N/A         Yes
  3
         ACSB’s Quality Assurance Unit will track future expenditures and ensure
         that necessary notifications are made.
         Management agreed with the finding and recommendation.                                12/13/99    ACSB Memorandum         N/A         Yes

  4       DOA Quality Assurance Unit has been assigned the responsibility to
         review weekly POS reports to ensure ACSB compliance with current
         policy.

         Management agreed with the finding and recommendation.                                12/13/99    ACSB Memorandum         N/A         Yes

  5      Quality Assurance will also be responsible for monitoring the accuracy of
         ACSB's assignment of PSCs.

         Management agreed with the finding and recommendation to the extent that              1/13/00     ACSB Memorandum         N/A         Yes
         it applies to non-FSS procurements.                                                                      and
                                                                                                           Marketing research
  6      Management will continue to emphasize to COs the importance of using all                               results
         available sources when developing a solicitation list. In addition, newly
         applied marketing research will be used to expand the number of firms on
         NCS.

         Management agreed with the finding and recommendation.                                12/13/99    ACSB Memorandum         N/A         Yes
                                                                                                             Plus Marketing
         Management will continue to emphasize to COs the importance of using all                           research results
  7      available sources when developing a solicitation list. In addition, newly applied
         marketing research will be used to expand the number of firms on NCS. In
         addition COs meet with program office officials and assist in the preparation of
         the bidder list. For requirements exceeding the maximum order threshold on
         GSA Schedule contracts, DOA indicated in discussions with them subsequent to
         receipt of their response to the draft report, that they reviewed GSA procurements
         over the past year and found they generally ensure that at least 5 – 8 firms are
         solicited.




                                                                                    32
                                                                                      Expected    Documentation That              Management
 Rec.                                                                                Completion   Will Confirm Final   Monetary    Decision:
Number              Corrective Action: Taken or Planned / Status                        Date            Action         Benefits    Yes or No
         Management agreed with the finding and recommendation.                       1/13/00         Revised            N/A         Yes
                                                                                                     RFP and
  8      In February 1999, ACSB discontinued its temporary waiver of APM                              ACSB
         allowing the distribution of bidder lists. Dialog with ODEO has been                       Memorandum
         ongoing to find new methods of stimulating MWOB participation in the
         procurement process.

         Management agreed with the finding and recommendation.                       1/13/00         Revised            N/A         Yes
                                                                                                     RFP and
         In February 1999, ACSB discontinued its temporary waiver of APM                              ACSB
  9      allowing the distribution of bidder lists. Dialog with ODEO has been                       Memorandum
         ongoing to find new methods of stimulating MWOB participation in the
         procurement process.

         Management agreed with the finding and recommendation.                       1/13/00       APM Revision         N/A         Yes

 10      Management will expand the use of the source selection process to include
         large IT multiple award schedule service contracts.

         Management agreed with the finding and recommendation.                       1/13/00     ACSB Memorandum        N/A         Yes

 11      Management will also instruct COs and ACSB staff to convene 3-member
         TEPs for all MAS contracts that exceed the maximum order limitation.




                                                                              33
